HHS/OIG, Audit -"Review of Medicare Part B Administrative Costs Claimed By HealthNow New York, Inc. For The Period October 1, 1999 through September 30, 2002,"(A-02-03-01012)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Part B Administrative Costs Claimed By HealthNow New York, Inc. For The Period October 1, 1999
through September 30, 2002," (A-02-03-01012)
November 12, 2003
Complete
Text of Report is available in PDF format (1.28 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to determine whether: (1) HealthNow New York, Inc. (HealthNow) has
established effective systems of internal controls, accounting and reporting for administrative costs incurred under the
program, and (2) the Final Administrative Cost Proposal (FACP) presents fairly, in all material respects, the costs of
program administration allowable in accordance with Part 31 of the Federal Acquisition Regulations (FAR) as interpreted
and amended by Appendix B of HealthNows Medicare agreement with the Centers for Medicare & Medicaid Services (CMS).  We
determined that HealthNow generally had established adequate systems for internal control, accounting and reporting for
administrative costs.  In addition, nothing came to our attention to indicate any material control weaknesses.  Further,
the administrative costs claimed on the FACP for the period October 1, 1999 through September 30, 2002, were generally
in accordance with Part 31 of the FAR and Appendix B of HealthNows Medicare agreement with CMS.  However, our review
disclosed that $317,593 of the costs claimed were overstated.  We recommended that HealthNow reduce costs claimed
by $317,593, and procedural corrections.